Audit of USAID/Haiti’s Executive Office
Operations


Audit Report No. 1-521-03-004-P

May 29, 2003




               San Salvador, El Salvador
(“This page intentionally left blank”)
May 29, 2003

MEMORANDUM
FOR:           USAID/Haiti Director, David Adams

FROM:          RIG/San Salvador, Timothy E. Cox

SUBJECT:       Audit of USAID/Haiti’s Executive Office Operations (Report No.
               1-521-03-004-P)


This memorandum is our report on the subject audit.

Your comments on the draft report were considered in preparing this report.
They are included for your reference in Appendix II.

This report contains eight recommendations for your action. Regarding
Recommendation No. 7, final action has been taken.                 Regarding
Recommendation Nos. 1, 2, 4, 6, and 8, a management decision has been
reached, but final action is pending. No management decision has been reached
regarding Recommendation Nos. 3 and 5.

Please advise my office within 30 days of the actions you have planned or taken
to implement Recommendation Nos. 3 and 5. Once you have a firm plan of
action to implement those recommendations, please provide it to us for our
concurrence. The Office of Management Planning and Innovation will make a
determination of final action after the recommendations have been completely
implemented.

Once again, thank you for the cooperation and courtesy extended to my staff during
the audit.




                                                                                  1
(“This page intentionally left blank”)




                                         2
Table of   Summary of Results                                                    5
Contents
           Background                                                             6

           Audit Objective                                                        7

           Audit Findings                                                         7

                  Are USAID/Haiti’s Executive Office operations
                  performed in accordance with USAID policies and procedures
                  and applicable laws and regulations?                            7

                         Regional Security Officer Approval Needed                9

                         Determination of the Necessity of Residential
                         Swimming Pools Needed                                    9

                         Separation of Duties Needed for Property Operations     10

                         Expendable Property Inventory System Needed             11

                         Auction Procedures Need to be Documented                11

                         Assessment of Vehicles and Drivers Needed               12

                         Policy for Long Distance Calls Needed                   13

                         Acceptable Residential Utility Usage Rates Need to be
                         Established                                             13


           Management Comments and Our Evaluation                                14

           Appendix I - Scope and Methodology                                    15

           Appendix II - Management Comments                                     19




                                                                                      3
(“This page intentionally left blank”)




                                         4
Summary of   As part of its fiscal year 2003 audit plan, the Regional Inspector General/San
Results      Salvador performed this audit to determine if USAID/Haiti performed its Executive
             Office (EXO) operations in accordance with USAID policies and applicable laws
             and regulations (page 7). The audit covered EXO operations in the areas of (1)
             procurement, (2) lease management, (3) non-expendable and expendable property
             management, (4) motor pool, (5) personnel and (6) utilities (page 7). In all six areas,
             the audit showed that many EXO functions were performed in accordance with
             USAID policies and applicable laws and regulations (page 7).

             The audit also found that:

             •   The Regional Security Officer did not approve residential leases (page 9).

             •   Documentation justifying residential swimming pools was not maintained (page
                 9).

             •   The proper segregation of duties for non-expendable and expendable property
                 operations, including physical inventories, was not established (page 10).

             •   An expendable property inventory system was not maintained (page 11).

             •   Auction procedures were not documented (page 11).

             •   The proper number of vehicles and drivers was not assessed (page 12).

             •   A policy for long distance calls was not established (page 13).

             •   Acceptable residential utility usage rates were not established or monitored
                 (page 13).

             To address the issues noted in this report, we are making eight recommendations.
             We recommend that USAID/Haiti obtain written approval from the Regional
             Security Officer for all USAID/Haiti residential properties (page 9), evaluate the
             necessity of maintaining residential swimming pools and get Mission Director
             written approval on each lease where the property contains a swimming pool (page
             10), take the necessary steps to allow for adequate segregation of duties with respect
             to personnel in property management positions and the required annual physical
             inventory (page 10), establish an inventory record system for expendable property
             (page 11), issue auction policies and procedures and incorporate in them the
             requirement to (a) document its rationale for any deviation from auction procedures
             and (b) obtain approval from the Executive Officer for any deviation (page 12),
             perform a Dispatch Analysis as required by USAID’s Automated Directives System
             (page 12), establish procedures so that the lowest cost alternative for making long
             distance calling is utilized (page 13), and track employee utility usage, establish


                                                                                                  5
             normal usage rates, and notify employees when usage exceeds the established
             normal range (page 14).

             USAID/Haiti agreed with six (Nos. 1, 2, 4, 6, 7, and 8) of the eight
             recommendations in this report, implemented final action on one of them (No. 7),
             and made management decisions on the remaining five. The mission has taken
             some action on the two recommendations it disagreed with (Nos. 3 and 5) and
             management decisions will be made on these recommendations after
             USAID/Haiti has developed and the Office of Inspector General has concurred on
             a firm plan of action to implement the recommendations. The Office of
             Management, Planning, and Innovation will determine final action on
             Recommendation Nos. 1, 2, 3, 4, 5, 6, and 8 after the recommendations have been
             implemented (page 14).


Background
             As discussed in USAID’s Automated Directives System, the Executive Office
             (EXO) within a mission is responsible for providing managerial guidance and
             directions in the following functional areas: program support, budgetary planning,
             management analysis and planning, human resources management, administrative
             and general services including property management, contract management,
             embassy administrative support, administrative support to contractors, security and
             safety, travel and transportation, and information resources management.

             The EXO, in coordination with the Mission Director and the Controller's Office, is
             responsible for the administrative management functions of the mission, which may
             include personnel management, general services, leasing, travel, security, property
             management, contracting, leasing, information resources management,
             communications and records management. The size, complexity and diversity of the
             mission and the availability of local or regional services determine the scope of
             functions of an Executive Office.

             In April 2002, the Regional Inspector General/San Salvador conducted a risk
             assessment of major functions within USAID/Haiti. We identified USAID/Haiti’s
             major functions based on input from the Mission Director, discussions with mission
             staff, and review of mission reports. We judged risk exposure (e.g., the likelihood of
             significant abuse, illegal acts, and/or misuse of resources, failure to achieve program
             objectives and noncompliance with laws, regulations and management policies) for
             those major functions. We judged the EXO functions to have a “high” risk
             exposure, which simply means that they are more vulnerable to not achieving their
             objectives or to experiencing errors or irregularities.

             This audit primarily covered the period from July 1, 2002 through December 31,
             2002. During this period, there were 120 employees and obligations totaled
             approximately $4.9 million.




                                                                                                  6
Audit Objective   The Regional Inspector General/San Salvador added this audit to its fiscal year 2003
                  audit plan as a result of its April 2002 risk assessment of major functions within
                  USAID/Haiti. The audit was performed to answer the following audit objective:

                  •   Are USAID/Haiti’s Executive Office operations performed in accordance with
                      USAID policies and procedures and applicable laws and regulations?



Audit Findings    Are USAID/Haiti’s Executive Office operations performed in accordance with
                  USAID policies and procedures and applicable laws and regulations?

                  Except for the problem areas noted in the following sections of the report,
                  USAID/Haiti’s Executive Office (EXO) operations were performed in accordance
                  with USAID policies and procedures and applicable laws and regulations.

                  The audit covered EXO operations in (1) procurement, (2) lease management, (3)
                  non-expendable and expendable property management, (4) motor pool, (5)
                  personnel and (6) utilities. The audit showed that many EXO functions were
                  performed correctly:

                  •   In the area of procurement, the audit found that (a) appropriate specifications
                      were provided for procurements, (b) required competition in the procurement
                      process was obtained, (c) documentation to support the use of simplified
                      acquisition was provided, (d) purchase order forms were correctly prepared and
                      approved, and (e) items procured showed evidence of receipt.

                  •   For the mission’s management of leases, the audit found that (a) landlords
                      were host country residents and no off-shore lease payments were made, (b)
                      where possible, required security upgrades were paid by the landlord as a
                      condition of the execution of leases, (c) employees were assigned housing
                      according to their position grade and family size, and an interagency housing
                      board approved all assignments, and (d) approval for non-residential space
                      leases and residential leases over $25,000 per year was obtained from
                      USAID/Washington.

                  •   With respect to non-expendable property: (a) inventory records were in
                      agreement with the physical inventory count, (b) the warehouse was secure,
                      and (c) good storage practices were generally followed. Also, with respect to
                      expendable property: (a) the supply room was secure and (b) good storage
                      practices were generally followed.

                  •   In the motor pool, the audit found that (a) the mission maintained purchase
                      invoices, purchase orders, registrations, and customs documentation for all


                                                                                                    7
    vehicles, (b) accident reports were prepared when necessary, (c) work orders
    were prepared when necessary, (d) trip reports were prepared daily and filed,
    (e) vehicle maintenance was regularly performed, and (f) monthly and
    annually required motor pool reports were prepared and submitted to
    USAID/Washington.

•   With respect to the mission’s personnel management, the audit found that (a)
    all hiring of personnel was done in accordance with applicable criteria, (b)
    required documentation for all personnel actions was maintained, (c) local
    staff was compensated as required by U.S. and Haitian laws, and (d) leave for
    local staff was accrued and carried forward as required.

•   For the management of utilities, the audit found that (a) the distribution of cell
    phones and phone cards was tracked and accomplished through proper
    authorization, (b) procedures for approving, processing, paying and collecting
    utility costs were in place and being adhered to, and (c) bill of collection
    procedures for non-official long distance phone calls and fax transmissions were
    in place.

Improvements are needed in four functions: (1) management of leases, (2) non-
expendable and expendable property management, (3) motor pool operations, and
(4) utilities. As is described in more detail in the following sections:

•   The mission did not obtain approval from the Regional Security Office prior to
    the execution of residential leases.

•   Waivers justifying the leasing of residences with swimming pools for USAID
    employees were not prepared or approved.

•   An appropriate separation of duties for non-expendable and expendable property
    operations was not established.

•   An inventory system was not maintained for expendable property.

•   Auction procedures were not documented and the latest auction was not
    managed in a transparent manner.

•   The EXO did not assess the proper number and distribution of vehicles and
    drivers.

•   The mission was not utilizing the most economical means of making long
    distance phone calls.

•   The mission has not determined acceptable residential utility usage rates and
    does not have a policy of notifying employees when there are unreasonably large
    increases in utility usage.


                                                                                    8
Regional Security Officer Approval
Is Needed Prior to Residential Lease Signing

Although required by USAID’s Automated Directives System (ADS) 562.3.6 and
the Foreign Affairs Manual (6 FAM 732), the mission was not obtaining approval
from the Regional Security Officer (RSO) in Haiti prior to lease signing. Of the
15 residential leases currently managed by the EXO, the RSO had not provided
final security approval on any of them. Five residences received an initial
inspection by the RSO, who made security recommendations, but there was no
final RSO approval of the residences. Additionally, according to a security
inspection performed in the summer of 2000 by the Department of State, all of the
USAID residences needed security improvements in order to be compliant with
security requirements.

According to the RSO, the mission frequently failed to request a final inspection
by their office, which may be because USAID misinterpreted its initial inspection
as approval. The former EXO, who was responsible for signing the 15 residential
leases, could not be reached for comment. Current EXO personnel are new and
have not negotiated any leases. The current EXO stated that he would have
discovered and corrected this misinterpretation when he was negotiating the first
new lease. RSO approvals prior to leasing residential properties are required to
ensure that USAID personnel, as well as their dependents and personal property,
are reasonably safe from criminal threats. This is particularly important in Haiti,
which has been designated by the RSO as a “critical” post in terms of the
prevalence of crime.

       Recommendation No. 1: We recommend that USAID/Haiti
       obtain written approval from the Regional Security Officer for
       all USAID/Haiti residential properties.

Determination of the Necessity of
Residential Swimming Pools Needed

Effective December 28, 1998, ADS 535.3.3 states that no residential leases may
be entered into if the property includes a swimming pool unless no other adequate
quarters are available as established and documented by USAID and approved by
the Mission Director for each such lease. USAID/Haiti entered into or renewed
13 leases after December 28, 1998, in which the properties being leased contained
swimming pools. The mission did not document the rationale for not adhering to
this USAID policy.

According to USAID/Haiti officials, it is virtually impossible to lease a residential
unit in Haiti, suitable for a U.S. government employee, which does not have a
swimming pool. Mission management stated that, having come from prior posts
in Africa where swimming pools were commonplace, upon arriving in Haiti they



                                                                                   9
did not question the fact that most USAID residences had swimming pools. They
stated that the absence of waivers would have come to their attention and would
have been corrected when the first new lease was processed.

Leasing properties with swimming pools is an extremely sensitive issue since
USAID’s mission is to support development in developing and transitional
countries, and there is a special need to avoid the appearance that USAID
employees are living extravagant lifestyles that are inconsistent with USAID’s
mission. In addition, properties with swimming pools create safety issues and
expose the U.S. government to potential liability in the event of accidents.

       Recommendation No. 2: We recommend that USAID/Haiti (a)
       evaluate the necessity of maintaining residential swimming
       pools, and (b) get Mission Director written approval on each
       lease where the property contains a swimming pool.

Separation of Duties Needed
For Property Operations

The Foreign Affairs Manual (6 FAM 221.2), Personal Property Management for
Posts Abroad – Delegated Responsibilities – Separation of Duties, states that a
proper management control system ensures that no one individual is in the
position to control all aspects of any transaction affecting the receipt, storage, or
disposition of expendable or non-expendable property. For the mission’s property
operations regarding both expendable and non-expendable property, the same
employees perform the duties of receiving property, record keeping and storage,
and conducting physical inventories.

According to mission officials, the warehouse operations have been in a state of
flux for the last year because the former property supervisor’s performance was
poor and new personnel for both expendable and non-expendable property had
only recently been working in their respective positions. They have been
operating without benefit of adequate supervision, written operating procedures
and, for expendable property, an adequate computerized inventory system. The
mission had also only recently moved into a new warehouse facility and is
currently short one position. Additionally, current mission management was
unaware that physical inventories were not being performed by someone other
than property personnel. Not only does this lack of separation of duties violate
management control principles, it makes it difficult for mission management to
protect against and/or detect any irregularities.

       Recommendation No. 3: We recommend that USAID/Haiti
       take the necessary steps to allow for adequate segregation of
       duties with respect to personnel in property management
       positions and the required annual physical inventory.




                                                                                  10
Inventory System Needed
For Expendable Property

The Foreign Affairs Manual (6 FAM 224), Control of Personal Property, requires
that property management personnel establish procedures which reasonably
ensure that all personal property is controlled. This includes maintaining
inventory records on all accountable property. For its expendable property, the
mission did not have an inventory system in place to maintain accurate and
reliable records.

USAID/Haiti’s Information and Management Office was tasked with developing
a computerized system to account for expendable property. It developed a
property inventory database in September 2002, but due to conflicting priorities, it
had not completed its testing of the new system. As a result, the mission cannot
be assured of what expendable property it has, what materials will be needed or
are not being used, or if there is any unaccounted for property. It is also unable to
perform annual inventory reconciliations to records as required by 6 FAM 226.1.

       Recommendation No. 4: We recommend that USAID/Haiti
       establish an inventory record system for expendable property.

Auction Procedures
Need To Be Documented

ADS 527.5.1, Functions of the Mission Executive Office, states that the Executive
Office shall normally be responsible for planning and directing the mission’s
personal property including acquisition, management, and disposal programs and
develop standards for issuing, using and controlling the personal property of the
mission. Further, the Code of Federal Regulations (41 CFR 109-45.304-51[h]),
Documentation, states that files pertaining to surplus property sales shall contain
copies of all documents necessary to provide a complete record of the sales
transactions and shall include a justification concerning any award made to other
than the high bidder.

In June 2002, USAID/Haiti held a sealed-bid auction to dispose of excess or
obsolete property. However, contrary to the above requirements, of the 72
transactions reviewed from this auction, there were 22 instances (31 percent)
where the highest bidder did not win, and the mission did not document its
reasons for these departures from normal auction procedures. In addition, in the
22 instances where the highest bidder did not win, 13 (59 percent) of the winners
were either a USAID employee or a relative of an employee. According to the
property supervisor, this could have occurred because in the past USAID/Haiti
has shown preferential treatment in awarding bids to its employees and their
relatives. On the other hand, according to other EXO officials, the only
preferential treatment that employees and their families enjoyed were less
stringent payment terms when they did win a bid. They stated that frequently the



                                                                                  11
highest bidder did not win because they were not physically present at the auction
and the item was (1) given to the next highest bidder, (2) left at the end of the day,
so the mission chose to sell it to whoever was there for the minimum bid, or (3)
considered junk, so the mission chose to sell it to whoever was there for the
minimum bid or lower. However, there was no documentation maintained to
support what actually happened.

EXO officials did not issue written auction procedures and/or provide the
necessary management oversight to ensure a transparent and fair sealed-bid
auction. In addition, at the time of the June 2002 auction, the EXO office was in a
state of transition as the former EXO was about to retire and depart post. As a
result, the U.S. government may not have received the highest proceeds possible
on the June sale of excess property and, there could have been unfair bidding
practices.

       Recommendation No. 5: We recommend that USAID/Haiti
       issue auction policies and procedures and incorporate in them
       the requirement to (a) document its rationale for any deviation
       from auction procedures and (b) obtain approval from the
       Executive Officer for any deviation.

Correct Number of Vehicles and
Drivers Needs to be Assessed

ADS 536.3.4(a) states that missions must annually conduct a dispatch analysis to
determine if the post has the correct number and distribution of vehicles and
drivers. Instructions on how to perform this assessment are detailed in 6 FAM
228.1-2(B) and ADS 536.3.4(b). The mission has not performed a dispatch
analysis, or the equivalent, in several years and the current EXO, having recently
arrived at post, has expressed concerns over the number of vehicles−38 for a
mission with 14 Americans−maintained by his office.

According to an EXO official, there are several unique circumstances present in
Haiti, such as bad roads, extensive traffic in the capital, and security concerns that
necessitate the need for USAID to provide shuttle services to Americans traveling
to and from the office, that require the mission to have more than the average
number of vehicles and drivers. However, this official was not aware of the
annual requirement to assess the mix of vehicles and drivers. The former EXO
had not performed a dispatch analysis in several years and the new EXO had only
recently arrived at post. Therefore, USAID/Haiti is not assured that it has the
correct number and distribution of vehicles and drivers and may therefore, be
neglecting opportunities to improve mission cost and performance efficiencies.

       Recommendation No. 6: We recommend that USAID/Haiti
       perform a Dispatch Analysis as required by USAID’s
       Automated Directives System.



                                                                                   12
Policy for Long Distance
Calls Should Be Established

USAID Notice 633 Long Distance Calling Policy and Telephone System
Information1 applies to USAID/Washington and states that missions are
encouraged to develop policy and guidelines for their staff. We did not find a
mission policy in this area. The audit found that mission personnel, utilizing a
U.S. Embassy dedicated phone line to Washington, D.C., used AT&T calling
cards for making long distance calls to the U.S. In addition, personnel used the
AT&T cards for making calls to the U.S. and the Dominican Republic directly
from Haiti.

The mission’s long distance records for September 2002 were analyzed. This
analysis showed that calls made using the AT&T calling card cost between 92
cents and $11 per minute. If instead, personnel had made all calls to the U.S. and
the Dominican Republic utilizing pre-paid calling cards, costing 5 to 10 cents per
minute, and utilizing the dedicated line through Washington, D.C., the mission
could have saved approximately $25,000 per year. In the future, these savings
could increase due to the January 2003 installation of a new Voice Over Internet
Protocol (VOIP) phone system, which, when utilized, will enable free long
distance calling to the U.S.

Because of competing priorities and changes in EXO personnel, this issue had not
previously been addressed. In addition, mission management was unaware of the
cost per unit charge of long distance calls utilizing the AT&T calling cards.

        Recommendation No. 7: We recommend that USAID/Haiti
        establish procedures so that the lowest cost alternative for
        making long distance calling is utilized.

Acceptable Utility Usage Rates
for Residences Should Be Established

Foreign Affairs Manual (FAM) section 6 FAM 717.9-2 Residential Cost Controls
for Utilities states that the Executive Officer for USAID is responsible for
ensuring that costs of utilities for U.S. Government-held residences are carefully
controlled and held to reasonable levels. Since USAID/Dominican Republic
became the accounting station for USAID/Haiti in October 2002, the mission
sends all records of utility costs for each residence to them and did not maintain
copies of receipts. Therefore, usage rates by household were not tracked for highs
and low in order to track variances and establish acceptable use rates. Also, the
mission did not have a policy for notifying employees in the event of large
increases in utility usage. This occurred because EXO officials considered their

1
  USAID/Washington Notice 633 was issued on October 7, 1992 and was included as a mandatory
reference to the ADS effective September 21, 1998.


                                                                                        13
                 current process, which included a review of invoices that are then signed by the
                 EXO, to be sufficient. However, since their review did not include a month-to-
                 month comparison, excess utility usage, which could be adjusted by changes in
                 employee habits, or which could be the result of problems with the house or
                 utility theft, may not be corrected.

                        Recommendation No. 8: We recommend that USAID/Haiti
                        track employee utility usage, establish normal usage rates, and
                        notify employees when usage exceeds the established normal
                        range.



Management       In responding to our draft report, USAID/Haiti presented steps being taken to
Comments and     address each recommendation. Its comments are included in their entirety in
Our Evaluation   Appendix II.

                 Regarding Recommendation Nos. 1, 2, 4, 6, and 8, the mission agreed with the
                 reported findings and has developed a firm plan of action to address each
                 recommendation. Consequently, a management decision has been made.

                 Regarding Recommendation No. 7, the mission agreed with the reported finding
                 and has already implemented procedures and a system which provides it with a
                 no-cost alternative for making long distance calls. Therefore, final action has
                 been taken on this recommendation.

                 USAID/Haiti has taken some action on the two recommendations it disagreed
                 with (Nos. 3 and 5) and management decisions will be made on these
                 recommendations after the mission has developed and the Office of Inspector
                 General has concurred on a firm plan of action to implement the
                 recommendations.




                                                                                              14
                                                                                  Appendix I



Scope and
              Scope
Methodology
              The Regional Inspector General/San Salvador conducted an audit of
              USAID/Haiti’s Executive Office (EXO) operations. The audit was performed in
              accordance with generally accepted government auditing standards at the offices
              of USAID/Haiti from January 13 to 30, 2003.

              The audit examined USAID/Haiti’s EXO operations in procurement, lease
              management, non-expendable and expendable property management, motor pool,
              personnel, and utilities for the period July 1, 2002 to December 31, 2002. In
              addition, the audit examined the auction process that was held in June 2002. It did
              not cover any other EXO operations.

              We used statistical sampling techniques to draw three of the samples used in this
              audit (procurements, non-expendable property, and personnel). For the first two
              categories, a 95 percent confidence level with plus or minus 4 percent precision
              limit and expected occurrence rate of 5 percent was used. For procurements, this
              resulted in a sample of 95 procurement actions. The sample of non-expendable
              property included 114 items. For part of our personnel testing, we utilized
              discovery sampling by randomly selecting 30 employees.

              Because populations were small, one hundred percent reviews were performed for
              lease management, motor pool, and personnel actions. For utilities, we
              judgmentally selected one month, September, and reviewed all items in that
              month. Lastly, in the examination of the auction process, we selected the first 72
              lots that were sold. We considered non-compliance exceeding 5 percent of the
              cases reviewed (by number) to represent material non-compliance.

              We assessed the mission’s risk exposure and control effectiveness over EXO
              processes in procurement, lease management, non-expendable and expendable
              property management, motor pool, personnel and utilities. We interviewed
              USAID/Haiti officials and reviewed the mission’s October 2002 self-assessment
              of its compliance with the Federal Manager’s Financial Integrity Act of 1982. In
              addition, we analyzed the leave taken by key EXO employees from July 1, 2002 to
              December 31, 2002 and analyzed responses to a questionnaire sent to all
              USAID/Haiti employees, which solicited employee opinions on EXO operations.

              Methodology

              The audit objective was to determine if USAID/Haiti’s Executive Office
              operations were performed in accordance with USAID policies and applicable


                                                                                              15
                                                                    Appendix I
laws and regulations. Specifically, we reviewed EXO operations in procurement,
lease management, non-expendable and expendable property management, motor
pool, personnel, and utilities.

In examining procurement, we used reports provided by USAID/Dominican
Republic, the accounting station for USAID/Haiti, which it obtained from the
Mission Accounting and Control System (MACS). These reports provided a list
of all procurement actions initiated by USAID/Haiti during the period July 1,
2002 to December 31, 2002. We reviewed a random sample of 95 procurement
actions totaling $405,531 out of a universe of 524 procurement actions totaling
$4,925,178.

In examining leases, we obtained a list of all active leases in force during the
period under audit and compared this list against the physical files of leases in
the Executive Office. We determined that there were a total of 17 active leases
in force for the period under audit. We reviewed 100 percent of the lease files.

For non-expendable and expendable property management, we obtained
separate samples. For non-expendable property, we obtained a list of all non-
expendable property sorted by location. The resultant list was comprised of
9,784 items, which was our audit population. The sample size for this
population was determined to be 114 items (only 80 had monetary values
attributed to them) valued at $19,231.

For the June 2002 auction, we selected the first 72 lots sold out of a total of 135
lots. We initially intended to review all 135, but after completing 72 it was
determined to be adequate for assessing the tested attributes.

Motor pool operations included 38 vehicles and 23 drivers, including the motor
pool supervisor. This total reflected staff on-board at the time of the audit in
January 2003. We obtained the permanent and maintenance files for each
vehicle, and conducted a 100 percent review of these records.

Additionally, we physically inspected each vehicle to ensure that the vehicle
identification numbers agreed with the vehicle records and if the vehicles
contained seatbelts. We also analyzed the mission’s control of fuel and oil
usage and inspected the vehicle maintenance facility to ensure compliance with
fire and safety standards.

For personnel operations we obtained a list of all personnel changes made
during the audit period (totaling 24) and a list of all Foreign Service National
employees (totaling 106). We reviewed 100 percent of the personnel changes
made and randomly selected 30 employees to determine if hiring, firing and



                                                                                16
                                                                  Appendix I
employee compensation was done in accordance with applicable policies and
procedures.

For utilities, because the universe was large, we judgmentally selected the
month of September 2002 and determined the following:

•   Whether the mission has a system for issuing bills of collection for personal
    phone calls and faxes.

•   Whether the mission was utilizing the most cost-effective method for
    making official long distance calls.

•   Whether the mission was regularly monitoring residential utility usage.




                                                                              17
                                         Appendix I
(“This page intentionally left blank”)




                                                 18
                                                                                Appendix II


Management   April 21, 2003
Comments
             David Adams, USAID/Haiti Mission Director

             Management Comments on the RIG Draft Audit Report No. 1-521-03- 0XX-P.

             Timothy E. Cox, RIG/A/San Salvador


             This memorandum constitutes USAID/Haiti’s response to the Regional
             Inspector General (RIG) Draft Audit on USAID/Haiti’s Executive Office
             Operations (Report No. 1-521-03-0XX-P)

             General Comments:

             USAID/Haiti appreciates the time and effort of your staff in carrying out the
             audit of the Executive Office Operations. After completing the review of the
             Draft Audit Report, the Mission has some specific comments to make regarding
             recommendations No. 3 and No. 5.

             Recommendation No. 3: The Mission believes that there is appropriate
             segregation of duties within the Property Operations. Proper and adequate
             management control systems, supported by written procedures, are in place to
             ensure that any transactions affecting the receipt, storage and disposition of non-
             expendable property are conducted in accordance with management’s
             authorization.

             Recommendation No. 5: The Mission believes that there were proper and
             adequate internal controls in the disposition of non-expendable property through
             auction sales process. Files pertaining to surplus property sales contained copies
             of all documents necessary to provide a complete record of the sales
             transactions. The Mission believes that any deviations if found to the established
             control process were true exceptions rather than the norm.

             Mission proposed course of actions to address RIG recommendations:

             Recommendation No.1: We recommend that USAID/Haiti obtain written
             approval from the Regional Security Officer for all USAID/Haiti residential
             properties.

             The finding is correct in that the Mission has never sought final inspection and
             certification from the RSO before signing a lease. EXO has discussed with RSO


                                                                                             19
                                                                Appendix II
and agreed that the approval form which RSO has on hand will be used on
existing leases in the following manner: The RSO will inspect each house in the
inventory. Where any deficiencies are identified, RSO will advise EXO, who
will either have the work done by the landlord or at USAID’s expense, either in
house or by a contractor. When the RSO is satisfied, a signed form of
acceptance will be provided to EXO and filed with each lease.

Recommendation No. 2: We recommend that USAID/Haiti (a) evaluate the
necessity of maintaining residential swimming pools, and (b) get Mission
Director written approval on each lease where the property contains a
swimming Pool.

The finding is correct. However, EXO staff has inspected each property in the
inventory which has a swimming pool, and has inspected several properties
offered for rent during the past seven months. A statement has been developed
and approved by Director for insertion in each lease of a property with a
swimming pool. The statement that no other property was available is perfectly
true, and will be included in any future leases, although no new residential
property has been rented in more than a year.

Recommendation No. 3: We recommend that USAID/Haiti take the necessary
steps to allow for adequate segregation of duties with respect to personnel in
property management positions and the required annual physical inventory.

Although the Mission believes that there are appropriate segregation of duties
within the Property Operations, EXO will review the job descriptions of all
personnel in property management position and in annual physical inventory
and perform additional segregation of duties related to the already established
segregated functions.

Recommendation No. 4: We recommend that USAID/Haiti establish an
inventory record system for expendable property.

USAID/Haiti Information and Management Office (IMO) have been tasked to
develop a computerized system to account for expendable property. The
Mission expects that this property inventory database system will be up and
running during fiscal year 2003.

Recommendation No. 5: We recommend that USAID/Haiti issue auction
policies and procedures and incorporate in them the requirement to (a)
document its rational for any deviation from auction procedures and (b) obtain
approval from the Executive Officer for any deviation.




                                                                            20
                                                                 Appendix II
Although the Mission believes that proper internal controls were exercised
during the previous auctions sales, EXO has drafted revised auction sales
procedures which were put in place and successfully implemented during the
latest sealed bids sales in March 2003.

The problem of frivolous bids is an old one, and different Missions have their
own ways of dealing with them. It is not possible to know why so many of
them were received in the June 2002 auction. But in each case, the bids were
ranked in order and the highest bidder who was present at the time was able to
make the purchase. In order to reduce frivolous bidding during the last sealed
bid auction in March 2003, two new policies were introduced. All bidders were
required to make a cash deposit with their bid, and high bidders who did not
honor their bids had to forfeit the deposit. Second, the bid results are posted
showing only the highest bidder for each lot. This was intended to prevent high
bidders from backing out with the knowledge that an associate’s bid would be
second highest. While the auction process was improved, there were still areas
which needed further refinement, and small changes are being written into the
guidelines. They will include requiring higher deposits to further discourage
frivolous bids.

Recommendation No. 6: We recommend that USAID/Haiti perform a Dispatch
Analysis as required by USAID’s Automated Directive System.

The motor pool works exceptionally well in providing all transport services to
USAID. Obviously, this would not be possible with a shortage of vehicles, and
would be unlikely with the number of vehicles which the dispatch analysis will
indicate to be needed and justified here. EXO has contacted OMS and received
forms and instructions to perform the dispatch analysis. The target date for
completing this analysis is May 31, 2003. If, as expected, the analysis justifies
having fewer vehicles than are on hand, EXO will recommend reducing the fleet
size by one to two vehicles and no more, even if this leaves the Mission on the
high side of justified numbers. There are several reasons for this. The fleet is
USAID’s only means of local transportation, since there is no resort to the
Embassy, and there is no acceptable local public transport. After several years
of lower staffing, the USDH staff in Haiti is finally being augmented during
2003, and will grow by several USDH employees during this year. We cannot
drastically reduce available support just when the need for it is increasing.

Recommendation No. 7: We recommend that USAID/Haiti establish procedures
so that the lowest cost alternative for making long distance calling is utilized.

By September 2002, IRM had been made aware by EXO that the telephone
service available to USAID/Haiti was unsatisfactory, and compared unfavorably



                                                                              21
                                                                 Appendix II
with that of many African Missions. IRM replied that help was on the way, and
that if we could be patient for even a few months, a new system would be
installed here. They were as good as their word, and sent out a team in January
2003 to install a VOIP system. We now have access to the entire United States
at no cost to the Mission. We have collected calling cards back from employees
who were using them for business calls, and have retained control over two
cards which can be used for official international calls. Finally, we are
returning all except a core number of IVG access codes to the Embassy. These
are to be used only for calls to the Washington area, and only when our VOIP
circuits are giving problems. So far as calls to the United States are concerned,
the VOIP, being free, is surely the lowest cost alternative.

Recommendation No. 8: We recommend that USAID/Haiti track employee
utility usage, establish normal usage rates, and notify employees when usage
exceeds the established normal range.

This is another area which has not been fully addressed since the audit. The
EXO will write a set of guidelines to be followed when utility bills come in each
month. There are several considerations which will hamper our ability to
determine accurately whether costs are always reasonable and justified. Here
are a few:

-Some houses receive reliable electricity from the municipal supply; some rely
much more heavily on generators. In some instances, residences are on
generator 21 to 24 hours a day. In addition, some areas around Port au Prince
only receive electricity every 2 to 3 days for only 45 minutes to 2 hours a day.
-Some houses have working swimming pools which are subject to evaporation;
some have nonworking pools or none at all.
-Some kitchens cook with electricity; some with LPG
-Some houses receive municipal water; some have water delivered.

Since utilities can be neither consumed nor stored by employees, we would be
surprised to find a variance which cannot be explained by the parameters listed
above. Nevertheless, the guidelines will be followed monthly, beginning with
the April bills, and we should know by August whether there are anomalies.

In closing, USAID/Haiti would again like to express its appreciation for the
manner in which the audit was conducted and the usefulness of some of the
recommendations contained therein.




                                                                              22
